                 U.S. G O V E R N M E N T
                 PRINTING OFFICE
                 KEEPING AMERICA INFORMED




ASSESSMENT
              FEDERAL DIGITAL SYSTEM (FDSYS)
REPORT        INDEPENDENT VERIFICATION AND
09-05        VALIDATION (IV&V) - RELEASE RlC.2
             PRE-DEPLOYMENT STATUS REPORT
                       December 24,2008




        OFFICE OF INSPECTOR GENERAL
                          U.S. GOVERNMENT
                          KEEPING AMERICA INFORMED                OFFICE OF THE INSPECTOR GENERAL
                          WASHINGTON, DC 20401




    DATE:      December 24,2008

REPLY TO
 ATTN OF: Assistant Inspector General for Audits and Inspections

 SUBJECT: Federal Digital System (FDsys) Independent Verification and
          Validation (IV&V) - Release R1C.2 Pre-Deployment Status Report
          Report Number 09-05

      TO:      Chief Information Officer


      The GPO Office of Inspector General (OIG) is conducting independent verification and
      validation (IV&V) of GPO's Federal Digital System (FDS~S)'      implementation. The OIG
      contracted with American systems2to conduct IV&V for the public release of FDsys
      Release l ~ As. part~ of its contract with the OIG, American Systems is assessing the
      state of program management, technical, and testing plans and other efforts related to the
      rollout of Release 1C. One tasking is to evaluate risks prior to the deployment of the first
      public release of FDsys (Release R1C.2). The FDsys Program Office plans to deploy
      Release R1C.2 in early January 2009.

      The attached report prepared by American Systems provides their view of key risks to
      program activities that may adversely impact deployment of Release RlC.2. The
      contents of this report were briefed to the Chief Information Officer on December 18,
      2009. Section 4 of the report contains two recommendations designed to address the
      most significant pre-deployment risks. These recommendations are provided for
      management's information only. No response is required as these issues have been
      addressed in previous IV&V reports. However, we urge management to ensure that they
      are appropriately addressed prior to deployment.


        The FDsys program is a multimillion dollar effort that GPO is funding and managing to modernize the
      GPO information collection, processing, and dissemination capabilities it performs for the three branches of
      the Federal Government.
      2
        American Systems, located in Chantilly, Virginia, is a large information technology company with
      significant experience in the realm of IV&V for Federal civilian and Defense agencies, including the
      Department of State, the Navy, and the U.S. Agency for International Development.
        American Systems IVBV methodology is referenced to the ftamework established by the Institute of
      Electrical and Electronic Engineers (IEEE) Standard 1012-2004,the IEEE Standard for Software
      Verification and Validation.
If you have questions concerning this report or the IV&V process, please contact
Mr. Brent Melson, Deputy Assistant Inspector General for Audits and Inspections at
(202) 512-2037, or me at (202) 512-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Attachment

cc:
Chief of Staff
Chef Acquisition Officer
Chief Management Officer
Chief Technology Officer
                                                                          ATTACHMENT


                   IV&V QUICK LOOK REPORT
TO:             Brent Melson, COTR
FROM:           IV&V, Jon Valett
IV&V OF:        FDsys Program Development (Final - Doc Number 01-05 1)
SUBJECT:        State of the FDsys Program Activities to be Completed Prior to Deployment
DATE:           December 19,2008
CC:             Dan Rose, David Harold, John Best, Shawn 07Rourke


1. Description of Task

Independent Verification and Validation (N&V) reviewed the state of program activities
that have been identified by the Federal Digital System (FDsys) Program Management
Office (PMO) as being required to deploy FDsys in early January 2009. This report
provides IV&VYsdelineation of the current issues/problems associated with these
activities and a brief abstract describing their impact/consequences on the program.
Associated program risks and recommendations are also provided.

IV&V examined the key activities of the FDsys program including code development,
testing, requirements, training, and security. For each activity, the IV&V team identified
issues that may jeopardize the integrity of the system to be deployed. IV&V then
conducted internal meetings to better flesh out each issue and to determine the
impact/consequence to the deployment of FDsys. This report is not an attempt to
summarize the overall state of the program. Its intent is to identify risks to key program
activities that may impact deployment of Release R1C.2 (RlC2) and may impact the
development of Release RlC.3 (RlC3). In doing so, risks from previous IV&V reports
may be repeated in an attempt to identify the truly critical risks facing the program right
now.

Note that the list of activities/issues/consequencesis based on the material IV&V has
acquired from bi-weekly Risk Review Board meetings; weekly Configuration Control
Board meetings; meetings with the FDsys Program Director; and information accessible
in Caliber, ClearQuest, and Sharepoint.



While progress is being made on the FDsys program, there are still a number of key
activities that remain to be completed as the FDsys program deployment date nears. Not
completing the activities have consequences that manifest themselves as risks to
deployment and/or deployment of a system with less than optimal functionality;
potentially discouraging use of FDsys by the GPO community of users. Note also that
these activities are often inter-related and dependent upon successful completion of a
predecessor activity, e.g., conduct of User Acceptance Testing (UAT) is dependent upon
successful completion of the System Integration and Test (SIT) activity.
At this juncture in the program (mid-December 2008), many of the key dates specified in
the Integrated Master Schedule (IMS) have been missed and activities that need to be
completed for successful deployment of FDsys are incomplete. These include the items
discussed below:

        System integration and stand-up has taken longer than envisioned. This results in
       less time for testing and problem correction (if the deployment date is
       maintained), as well as, the possibility of an unstable system being deployed.
       Derived Requirements (DRs) are still being generated and requirements are not
       being adequately traced to software components and test cases. The generation of
       DRs and subsequent tracing of all requirements should have been completed prior
       to software development. There is no single report available that aligns the system
       requirements (RDs), DRs, software components, and Test Cases. This information
       may be spread across a number of documents, but it does not appear to have been
       consolidated anywhere. The flow from requirement to derived requirement to
       component allocation to test case is needed to confirm that each component
       appropriately addresses and satisfies the requirements from which it arose. The
       late completion of the DRs, along with the lack of adequate traceability creates
       substantial risks to testing, system maintenance, and to planning of RlC3.
       Requirements allocation to different software drops continued until early
       December. Some requirements have been moved to "post-launch" updates that are
       not currently scheduled. Deployment of these "post-launch" updates reduces the
       capabilities of the initial Release. These updates also introduce a risk of lack of
       acceptance by the user community as the changing functionality may cause user
       confusion.
       Testing is behind schedule. SIT for the three Drops for R1C2 has not been
       completed. Further compounding this issue is the incomplete test cases for Drop
       3. SIT has also been significantly delayed by the inability of the program to
       integrate Documenturn and create a stable system. Without sufficient SIT, the
       program risks deploying an unreliable and incorrect system.
       User Acceptance Test (UAT) and Beta Testing has only just begun for the public
       access part of the system. Only limited test cases for UAT have been developed.
       To-date, there is no evidence that test cases and procedures have been developed
       for Beta testing. The User Acceptance and Beta Test Plan for R1C2 is incomplete
       and unapproved. In addition, if UAT or Beta testing identifies any significant
       operational problems, it is unlikely that there will be sufficient time to fix these
       problems prior to the current deployment date.
       Test performance is not being adequately measured. Program Trouble Reports
       (PTRs) are being generated and tracked; however, no metrics to measure closure
       are being provided. As testing progresses, metrics, such as find, fix, verify curves,
       typically are used to monitor test progress. Without such metrics the program
       risks not knowing when testing will be complete.
       No Performance Testing has occurred. IV&V has not seen a Performance Test
       Plan and Performance Test Cases have not been developed. Without sufficient
       performance testing the program risks deploying a system that will not be
       responsive to user demand.
       Security testing has not occurred. There is no evidence that security test cases
       have been generated. There probably isn't insufficient time to create the necessary
       Certification and Accreditation package to meet the deployment date. Without
       sufficient security testing, the program risks deploying a vulnerable system.
       The delays in development and testing have impacted the development and
       conduct of FDsys Training. The Training materials are incomplete; and, user
       training is just beginning. As a result, the user community will may not be
       properly prepared to utilize FDsys when it is deployed.
       The databases needed for deployment are not complete and available for both
       public and internal users. The eight (8) GPO Access Collections targeted for
       FDsys R1C2 must be migrated and verified prior to deployment.
       Critical documentation has not been approved and a Production Baseline has not
       been established. The detailed design documentation does not reflect the "as-
       built" design and code, i.e., the Software Design Document (SDD) has not been
       updated for months. This creates a risk to maintenance and to the planning of
       RlC3, because without up-to-date documentation, maintenance will rely on the
       knowledge of the development team and the design of R1C3 will not start from
       the "as-built" baseline.

3. Identification and Assessment of Technical and Management Risks

The two most significant risks are as follows:
      Inadequate testing of FDsys increases the risk that the deployed system will
       function improperly and/or contain poor operational characteristics. This will
      jeopardize the acceptance and use of the system by the community of users that
      FDsys is supposed to serve.
      Inadequate tracing of requirements to system components and test cases, and lack
      of complete documentation of the system design creates a risk that system
      maintenance will be more difficult and costly, and that development of R1C3 will
      be more difficult and costly.

4. Recommendations

IV&V recommends:
      That the FDsys program ensure that the system is completely tested for
      hctionality, performance, and security prior to deployment; and,
      That requirements traceability and documentation updates be completed prior to
     beginning design of R1C3.
